n
i

Supreme Court, U.S.
FILED

CCT 2 3 2323
t

0

St

<!

'■v.

i!

f-y sS^

OFFICE OF THE CLERK

No.:
IN THE
SUPREME COURT OF THE
UNITED STATES
2020 TERM
IN RE
TOMMIE H. TELFAIR
"Petitioner"
AMENDED
Complaint, In The nature of:
Habeas corpus act,
Ad Subjiciendum, Audita Querela;
And Pursuant to: 28 U.S.C. §§ 1651, 2106.

By: Tommie H. Telfair, natural bom citizen of the United States and Citizen of
the State of New Jersey by lifelong domicile at:
17 Poe Avenue, 2nd Fir.
Newark, NJ 07106

Appearing: (Sui Juris) In Propria Persona

Authority: 1st, 4th, 5th, 6th, 8th, 13th, and 14th Amendments of the
constitution of the United States; also: Scott v. Sandford.

TABLE OF CONTENTS
l

HEADINGS

PAGES

QUESTIONS PRESENTED • • •

[2 ]

LIST OF PARTIES • • •

[3 ]

TABLE OF AUTHORITIES • • •

O ]

STATUTES AND RULES • • •

[6 ]

CONSTITUTIONAL AND STATUTORY PROVISIONS • • •

[7 ]

INTRODUCTION OF THE CASE • • •

[9.]

REASONS FOR GRANTING THE WRIT • • •

[9 ]

NATURE OF THE ACTION • • •

[11]

JURISDICTION S) • • •

[12]

WRIT OF HABEAS CORPUS • • •

[13]

NO OTHER REMEDY • • *

[14]

LEGAL STANDARD • • •

[17]

CASE SUMMARY...

[17]

HISTORICAL FACTS • • •

[19]

BACKGROUND AND PLEADINGS • • •
CHRONOLOGICAL FILINGS • • •

[22]
[22]

PROCEDURAL HISTORY...

[25]

POINT ONE OF ARGUMENT • • •

[26]

POINT TOO OF ARGUMENT • • •

[29]

TRANSCRIPTS OF TRIAL • • •

[31]

POINT THREE OF ARGUMENT • • •

[ 36]

DECLARATION IN LIEU OF CERTIFICATION

t

•

t

[43]

PRAYER...

[44]

OATH AND AFFIRMATION...

[45]

CERTIFICATE OF SERVICE • • •

[46]

-1-

QUESTIONS PRESENTED

I.

WHETHER CUMULATIVE VIOLATIONS AND FUNDAMENTAL ERRORS AS A "SOURCE" OF
CONSTITUTIONAL INFRINGEMENT DEPRIVED PETITIONER OF THE 1ST, 5TH, 6TH, 13TH,
and 14TH AMENDMENT RIGHTS SECURED BY THE CONSTITUTION?

II. WHETHER PETITIONER OR THE GOVERNMENT1S AGENT(S) VIOLATED THE GENERAL
CONSPIRACY STATUTES TANTAMOUNT TO EX POST FACTO LAWS; AND THE
UNCONSTITUTIONAL APPLICATION OF THE STATUTORY ELEMENTS UNDER 18 U.S.C. §2,
21 U.S.C. §§841, 846? .

III. WHETHER CUMULATIVE VIOLATIONS AND FUNDAMENTAL ERRORS AS A "SOURCE" OF
CONSTITUTIONAL INFRINGEMENT LED TO THE MISAPPLICATION OF 18 U.S.C. §2, 21
U.S.C. §§ 841, 846 CREATING SERIOUS CONSTITUTIONAL SEPARATION-OF-POWER
CONCERNS WHICH ATTACH TO PETITIONER'S SENTENCE ABOVE THE STATUTORY MAXIMUM
PENALTY AUTHORIZED BY CONGRESS?

-2-

LIST OF PARTIES
1. David E. Ortiz, herein (Warden or Respondent), has physical possession of
Petitioner's human body at FCI Fort Dix, NJ 08640.

-3-

TABLE OF AUTHORITIES
PAGES

CASE CITES
1. Truax v. Corrigan.
66 L. Ed. 254, 257
U.S. 312

[10]

2. Smith v. Texas.
58 L. Ed. 1129,
233 U.S. 630

[10]

3. Stanley v. Schwalby.......
162 U.S. 255, 279, 282,
40 L. Ed. 960, 969, S. Ct.
754

[13]

4. Shelly v. Kraemer.......
334 U.S. 20

[16]

5. Plessy v. Ferguson.......
163 U.S. 537, 16 S. Ct.
1138 41 L. Ed. 256 (1896)

[16]

6. Plyer v. Doe.......
457 U.S. at 239

[16]

7. House v. Bell.....
547 U.S. 518, 126
S. Ct. 2064, 165
L. Ed. 2d 1 (2006)

[17]

8. United States v. Collins
415 F. 3d 304, 2005
U.S. App. LEXIS 13981
(4th Cir. 2005)

[18]

9. Racque Sanchez.......
704 Fed. Appx. 38

[18]

10. Rowe
919 F. 3d 752, 759
(3rd Cir. 2019)

[23]

11. Alleyne v. united States...
570 U.S. 99, 103, 133
S. Ct. 2151, 186, L. Ed. 2d
314 (2013)

[23]

12. Caraballo-Rodriquez.......
726 F. 3d at 431

[26]

13. Hardwick v. United States.......
No. CV 12-7158 U.S. Dist
LEXIS 158905, 2018 WL 4462397,

[27]

-4-

at *14 (D. N.J. Sep. 18, 2018)
14. Peter Woodley.......
1023 U.S. Dist. LEXIS 181019

[29]

15. Mathis.......
136 S. Ct. at 2252-53

[36 ]

16. Apprendi.......
530 U.S. 466, 490,
120 S. Ct. 2348, 147
L. Ed. 2d 435 (2000)

[37]

17. Kelly.......
892 F. 2d 255

[41]

18. Transcripts of Trial.......
Proceedings Feb. 18, 2010
pgs.: 346-482

[31]

-5-

STATUTES AND RULES
STATUTES
18
21
21
21
21

U.S.C.
U.S.C.
U.S.C.
U.S.C.
U.S.C.

§2
§841(a)
§84l(b)(l)(A)(l)
§841(b)(l)(B)
§846

-6-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

AMENDMENT I
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people to peaceably assembly, and to petition I he
Government for a redress of grievance.
AMENDMENT IV
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and
no warrants shall issue, but upon probable cause, supported by oath or
affirmation, and particularly describing the place to be seaMched, and the
persons or things to be seized.
AMENDMENT V
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising
in the land or naval forces, or in the militia, when an actual service in time
of war or public danger; not shall any person be subject for the same offense to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due processes of law; nor shall private property be taken for
public use, without just compensation.
AMENDMENT VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his
defense.
AMENDMENT VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted. AMENDMENT XIII
Section 1: Neither slavery nor involuntary servitude, except as a punishment for
a crime whereof the party shall have been duly convicted, shall exist within the
United States, or any place subject to their jurisdiction.

-7-

Section 2: Congress shall have power to enforce this article by appropriate
legislation.
AMENDMENT XIV
Section 1: All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the state
wheriin they reside. No state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any
state deprive any person of life, liberty, or property without due process of
law; nor deny to any person within its jurisdiction the equal protection of the
law.

-8-

INTRODUCTION OF THE CASE
Petitioner presents an issue(s) of first impression and has previously
sought redress to contest the judgment, sentence, and conviction through
numerous filings including but not limited to: pretrial motions, interlocutory
appeals, recall of mandate(s), writ of certiorari, §2255, second §2255, 59(e),
multiple 60(b), §3582, and 5 attempts at §2241. Petitioner could not avail his
innocence nor discharge.
Petitioner was hurled into the U.S. district court due to the "unlawfully
procured" 'personal-jurisdiction1 without 'priofa notice,' nor 'service of
process} nor 'voluntary appearance! Individuals acting under color of United
States and New Jersey authority subjected] Petitioner to statutory elements
that resulted in the unconstitutional imprisonment of Petitioner against his
liberties. Miscarriage of Justice, cumulative violations, and fundamental errors
denied to Petitioner due process, equal protection of the laws, and deprived him
the rules designed to protect the rights of individuals "not to be tried (en
masse) for the conglomeration of distinct and separate Offenses conmitted by
others'.' [T]his case presents "exceptional circumstances" where the need for
remedy and redress by the Great Writ of Habeas Corpus is apparent.

REASON FOR GRANTING THE WRIT
Petitioner's Constitutional rights seeking redress, remedy, and discharge
have been subject to cumulative violations, deprivations of substantial rights,
"complete miscarriage of justice',' and fundamental error(s) from 2007 nearing
2021, for the crimes committed by undercover agents. Petitioner has been denied
every other means to establish his innocence. Without the purpose of the Great
Writ of Habeas Corpus, Petitioner will continue to be punished and imprisoned
for the "overt acts" of undercover agents impersonating as drug traffickers

-9-

herein described.
Petitioner's Great Writ request urgently needs to be granted and he should
be discharged from this unlawful imprisonment due to the miscarriage of justice
inter alia. Ihere are also constitutional reasons, "watershed rules"
implicat[ing] the fundamental fairness, 'and accuracy' of the proceedings,
intervening changes in defense (Ex Post Facto) created by Third Circuit
precedent long after Petitioner's previous attempts at redress; and the Third
Circuit's own interpretation involving statutory construction (i.e. §84l(a)) in
ways that rendered the Petitioner's conduct non-criminal providing collective or
separate reasons warranting this outcome, including but not limited to: The
Great Writ's application is not moot; it relates back to when Petitioner was (ab
initio) unlawfully subdued; and this Great Writ of Habeas Corpus can be used to
equitably redress this unconstitutional improsonment, for which there is no
other remedy save The Great Writ. Notwithstanding the fact(s), Petitioner's
claims of innocence can be-proven by the herein documentary evidences, which
verifies his imprisonment remains unconstitutional, and one of the Great Writ's
most classic functions is to release someone who is presently unlawfully
imprisoned.
The natural solicitude of the law is to end expeditiously an unjust
incarceration exerts a perhaps unacknowledged pressure for expansive review. The
approach adopted by the courts is consistent with the case in Schulp and the
r'lilings of the many circuits. Furthermore, it recognizes that "the injustice
that results from the conviction of an innocent person has long been at the core
of the criminal justice system'.' See: (e.g.) Schulp, 573 U.S. @ 325.
Indeed, "the conviction of an innocent person [is] perhaps the most grievous
mistake the judicial system can commit',' and thus, the contours of the innocence
gateway must be determined with consideration for correcting "such an affront to
liberty'.' See: Truax v. Corrigan, 66 L. Ed. 254, 257 U.S. 312; smith v. Texas, 58

-10-

L. Ed. 1129, 233 U.S. 630.
Petitioner avers that he is innocent of undercover agents' impersonation as
drug traffickers. The Government "failed" to prove the existence of 18 U.S.C.
§2, 21 U.S.C. §§841, 846; and that the underlying [conduct] by which
Petitioner's conviction/judgment is premised upon does not comport with the
necessary threshold statutory elements. Petitioner submits that had the
impersonating agents not violated his rights to cover-up their own civil RICO
conspiracy, and their own civil RICO racketeering resulting in the deprivation
of Petitioner's constitutional rights, Petitioner would not have been convicted
of the statutory offense due to agents' impersonation as drug traffickers.
Petitioner further submits that all lower courts have ignored or turned a
blind-eye to these very serious issues tantambunt to complete miscarriage of
justice, cumulative violation and fundamental errors; and ail lower courts have
sanctioned the violations of established precedent when making any determination
as to whether Petitioner's substantial rights to a fair and impartial
proceedings have been violated tantambunt to a "kangaroo court'.' The cumulative
violation and fundamental errors are clear, that Petitioner and any other
citizen of these United States by a "blink of an eye" can severely suffer from a
fundamental miscarriage of justice at any time the courts deprive Petitioner and
any similiar situated citizen of their fundamental rights to due process and
equal protection of the laws. This Honorable Court is asked to grant the Great
Writ of Habeas Corpus to correct the unlawful imprisonment of Petitioner and
order his immediate discharge.

NATURE OF THE ACTION
Ibis is a civil action in the nature of the Great Writ of Habeas Corpus,
inter alia, suing-out discharge and an order compelling the State of New Jersey
to provide Petitioner equal protection of the laws and due process in protection

-11-

of his personal civil rights of liberty under the first fourteen (14) Amendment
of the State and Federal constitutions that defeat State and Federal statutes
and licensing laws authorizing the use of the full coercive police powers of the
State to compel into involuntary servitude labor under secret classification of
non-citizens within America; authorizing specifically minority citizens to be
hurled into the U.S. District Court to be prosecuted as opposed to New Jersey
citizens being prosecuted in their own State cfciurts. Herein such authority has
been given tb prosecute State citizens in the U.S. District Court through the
unlawfully procured personal jurisdiction, without prior notice, nor service of
process, nor voluntary appearance in contravention to the principles of stare
decisis, therefore, such use of statutory and licensing authority purport to
possess lawful right(s) to subjugate Petitioner and other citizens is
unconstitutional on its face.

JURISDICTION
Jurisdiction over this complaint and to issue extraordinary writs inheres in
this Court under exclusive power of the Supreme Court of the United States
statutory grant of jurisdiction for original proceedings of extraordinary writs
exclusively in the highest of cburt(s). As the nations Supreme Court of justice
and last resort, it is well settled that exclusive jurisdiction to first say
what the law(s) is, how the law(s) apply, the constitutionality of statutes, and
the authorizing of laws for operating involuntary servitude labor.
(E.g.) in case of desist, Justice Harlan had reasoned that one of the two
principal functions of the Habeas Corpus was to "assure that no man has been
incarcerated under a procedure which creates an impermissibly large risk that
the innocent will be convicted',' and concluded "from this that all 'new'
constitutional rules which significantly improve the pre-existing fact-finding
procedures are to be retroactively applied'on Habeas review'.' See 394 U.S., at

-12-

262, 202 L. Ed. 248 89 S. Ct. 1030.

SUPPLEMENTAL JURISDICTION
Title 28 U.S.C. §2106 authorizes the Court to vacate, as well as reverse,
affirm, or modify any judgment lawfully brought before it for review. 28 U.S.C.
§165l(a) provides that the Court may issue ail writs necessary or appropriate in
aid of its jurisdiction. Such writs are to be executed, under 28 U.S.C. §672, by
the marshal of the court, who is authorized by 28 U.S.C. §549, when acting
within a state, to "exercise the same powers which a sheriff of such state may
exercise in executing the laws thereofThe power to enter judgment, and when
necessary, to enforce it by appropriate process, has been said to be inherent in
the Court's appellate jurisdiction. See: Stanley v. Schwalby, 162 U.S. 255, 279,
282, 40 L. Ed. 960, 968, 969, 16 S. Ct. 754; See also: Hart and Wechsaler,
supra, note 21, at 420-21.

WRIT OF HABEAS CORPUS
The Writ of Habeas Gorpus is an "extraordinary writ" and a new suMt opening
original proceedings. Civil actf bn in the nature of this Great Writ sues-out the
remedy which the law gives for the enforcement of civil right of personal
liberty of the citizen.

Resort to it sometimes becomes necessary, because of

what is done to enforte laws for the punishment of crimes, but the judicial
proceeding in the nature of the Great Writ of Habeas Corpus is not to inquire
into the criminal act which is complained of; but rather into the right to
liberty, notwithstanding the act claimed against the citizen.
In the present case, the citizen Mr. Telfair was subdued by plain clothed
individuals under armed threat, taken by force to a private, unnoticed building
in manadbs, and then sold, commerce leased, or convict leased, to unnoticed
individuals claiming to posses New Jersey's full police powers and authorized by

-13-

New Jersey to do selling of its citizens into involuntary servitude labor
service.
The plain clothed individuals purport to be vested with a sectet grant of
New Jersey's coercive power of government to traffic in involuntary servitude
labor and kidnapping under statutes and secret licensing laws allowing convict­
leasing maintained within the now FCI in the County of Burlington and throughout
the State of New Jersey. As aggrieved citizen being subject by supposed
operation of these so called statutes and licensing laws authorizing plain
r

clothed individuals the coercive police powers of the State of New Jersey in the
trafficking of its citizens for "convict-leasing" in the disguised tradeservice for involuntary servitude labor. Petitioner-Citizen has no other remedy
save the Great Writ.
This Highest Court of last resort has jurisdiction to issue the Great Writ
of Habeas Corpus and to have the Attorney General make return showing the
constitutionality of the statutes and licensing laws authorized and followed
throughout the State in allowing "convict-leasing" in the disguised tradeservice for human involuntary servitude labor of Petitioner and other citizens
bom in New Jersey and the United States.

NO OTHER REMEDY
Petitioner herein has no other remedy, as his subduction and imprisonment,
plus the derivative subduction and imprisonment of his family members, was done
by plain clothed individuals to cover up their own civil RICO conspiracy and
their own civil RICO racketeering, thrbugh the unlawfully procured "personaljurisdiction" without service of process, nor voluntary appearance, nor
opportunity to be heard before sale, trade, or convict-leasing of him and his
family members into involuntary servitude labor. The involuntary servitude labor
is now permanent and has remained from January 23rd, 2007 to date, and is

-14-

District Court, and the separate government to compel, inter alia, the
prosecution of Petitioner, and New Jersey's citizen, into involuntary servitude
labor, which is unconstitutional and repugnant to the first fourteen (14)
Amendments to the Federal and State constitution making the practice of convict­
leasing, human trafficking, and subjugation unconstitutional on its face.
Moreover, New Jersey's own government have sanctioned or turned a blind-eye
to the selling, leasing, or trading practices as a result of a separate
government (being especially enforced upon minority citizens) wielding New
Jersey's judicial and police power(s), depriving New Jersey's own citizens of
the first fourteen (14) Amendments to the Federal and State constitution. See:
(e.g.) Plessy v. Ferguson. 163 U.S. 537, 16, S. Ct. 1138 41 L. Ed. 256 (1896); a
state can of course assign certain consequences to a violation of its criminal
law. But the state cannot single out one identifiable class of citizen(s) for
punishment that does not apply to everyone else, with moral disapproval as the
only asserted state interest for the law. See also: Plyer v. Doe, 457 U.S. at
239; Shelly v. Kraemer, 334 U.S. 20. The fundamental question for the courts is
to determine the constitutionality of Federal and State policies [allowing] a
separate government "personal-jurisdiction" without prior notice, nor "service
of process',' nor "voluntary appearance',' to police and prosecute New Jersey's
citizen(s) before the U.S. district cbutjt(s)?

-16-

LEGAL STANDARD

This case [also] concerns the "actuaL innocence" gateway to federal habeas
review appLied in Schlup v. Delo, 513 U.S. 298, 115 S. Ct. 851, 130 L. Ed. 2d 808
(1995), and further explained in House v. Bell, 547 U.S. 518, 126 S. Ct. 2064, 165
L.Ed. 2d 1 (2006). in those cases

a convincing showing of actual innocence

enabled habeas petitioners to overcome a procedural bar to consideration of the
merits of their constitutional claims.
In Herrera v. Collins. 506 U.S. 390, 404-405, 133 S. Ct. 853, 122 L. Ed. 2d
203 (1993)... We have recognized, however, that a prisoner "otherwise subject to
defenses of abusive or successive use of the writ [of habeas corpus] may have his
federal constitutional claim considered on the merits if he makes a proper showing
of actual innocence." Id. (citing Sawyer v. Whitley, 505 U.S. 333, 112 S. Ct.
2514, 120 L. Ed. 2d 269 (1992)). See also Murray v. Carrier, 477 U.S. 478, 496,
106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986) ("[w]e think that in an extraordinary
case, where a constitutional violation has probably resulted in the conviction of
one who is actually innocent, a federal habeas court may grant the writ even in
the absence of a showing of actual innocence.")

CASE SUMMARY

The government's case-in-chief was premised upon a buyer seller relationship
between DEA agents and their own (CW(s)). The prosecution presented its case to
the jury "converted" into a conspiracy, the jury was [never] instructed on drug
weights, nor on Mens Rea, nor Conspiracy. The government's insufficient evidence
and facts led to a "general verdict" in Telfair's "coram non judice" trial which
deprived Telfair's "coram non judice" trial of fundamental fairness and Due
Process. The government incorrectly believed that it could attribute the buyer

-17-

seller relationship between DEA agents and its (CW(s)) to Telfair through § 2, §
841, and § 846, which led to duplicity in count two of Telfair's indictment in
contravention to the constitution.
Telfair's previous counsel's deficiency, law enforcement misconduct,
prosecutorial misconduct, and the unconstitutional use of Telfair's cellphone,
inter alia, led to Telfair's "coram non judice" proceedings under § 2, § 841, and
§ 846. The evidence in Telfair's "coram non judice" trial was insufficient to
allow a rational juror to find that Telfair possessed [ANY] grams of heroin at a
single time with the intent to distribute because the government's evidence was
premised on its incorrect belief that it could combine weights from multiple
distributions, discontinuous possessions during the indictment period, and the
buyer seller relationship between the government's agents and their own (CW(s)).
The Government [failed] to prove the existence of § 2, § 841, and § 846.
Therefore, the duty of the court(s) is to determine whether the government has
adduced sufficient evidence respecting [EACH] element(s) of "each" of the offense
charged to permit jury consideration. See: United States v. Collins, 415 F. 3d
304, 2005 U.S. App. LEXIS 13981 (4th Cir. 2005) (Court MUST give 'Pinkerton
instructions to establish vicarious liability for sentencing under BOTH statute
and guideline); Also

see: (Third Cir. Jury Inst. 7.01 and 6.21.841-5). Both

Pinkerton and Collins were 'not' applied in Telfair's unlawful proceedings.

RAC0UE SANCHEZ
704 Fed. Appx. 38

In a sufficiency of the evidence challenge, the United States Court of Appeals
for the Third Circuit reviews the record in the light most favorable to the
prosecution to determine whether any rational trier of fact could have found proof
of guilt beyond a reasonable doubt. Under this particularly deferential standard,

-18-

the Third Circuit must be ever vigilant not to usurp the role of the jury by
weighing credibility and assigning weight to the evidence, or by substituting its
judgment for that of the jury, the Third Circuit must sustain the jury's verdict
if there is substantial evidence, viewed in the light most favorable to the
government, to uphold the jury's decision.
To prove a conspiracy to distribute drugs in violation of 21 U.S.C. § 846. the
government must show: (1) a shared unity of purpose between the alleged
conspirators; (2) an intent to achieve a common goal; and (3) an agreement to work
together toward that common goal. The conspiracy must be shown beyond a reasonable
doubt, via direct or circumstantial evidence.

HISTORICAL FACTS

In January 23, 2007, Petitioner was subdued solely on the pretense of
information provided to law enforcement involved into the arbitrary arrest of two
individuals, later identified as Catherine Sanchez and Jennifer Filpo, located in
the residence at 185 Parker Street, in Essex County, New Jersey, (collectively,
' 'The IndividuaIs").
On September 5, 2006, law enforcement from Newark New Jersey Police Department
responded to a report of gunfire near 185 Park Street, upon arriving near the
residence, law enforcement observed Individuals standing in front of the house and
indictated that they reside there, the Individuals then escorted the officers
inside the residence, at which time the officers [alleged] they observed bullet
holes in the back and front door of the residence, and on the front door of the
refrigerator. Upon opening the refrigerator, the officers purportedly discovered a
plastic container holding approximately 130 grams of a substance which field
tested positive for the presence of cocaine base and heroin. At which time, the
Individuals were placed under arrest. In a post-arrest statement, the Individuals

-19-

indicated that the heroin, etc., located in the refrigerator at 185 Parker Street,
and confiscated by law enforcement, belonged to the Petitioner. Petitioner was not
present in the residence at the time of the incident.
On September 8, 2006, the Honorable Patty Schwartz signed a criminal complaint
and issued an alleged warrant for Petitioner's arrest, on January 23 Petitioner
was subdued as a result of the unlawful alleged arrest warrants. However, while
detained in pre-trial detention, at the Hudson County Correctional Center (HCCC),
Petitioner moved the District Court for a "polygraph test," to prove that the
Individuals were not forthcoming or truthful about the information they provided
regarding his involvement in the heroin conspiracy charge as alleged. Thereafter,
Petitioner was successful in passing the polygraph test, once Petitioner passed
the polygraph test, the Individual's recanted their allegations. Such that, the
information they provided to law enforcement pertaining to Petitioner's
involvement in the case, were wholly false and incorrect.
On August 16, 2007, the Individuals appeared before Judge Cavanaugh and pled
guilty to a one-count indictment charging that from April 2006 through or about
September 2006 in Essex County

they knowingly and intentionally conspired and

agreed with others (not Petitioner) to distribute and posses with intent to
distribute 100 grams or more of heroin, in violation of 21 U.S.C. §§ 846 and
841(a)(l)(b)(1)(B) . On April 26, 2010, Filpo was sentenced to 60 months
imprisonment. On June 7, 2010, Sanchez was sentenced to 36 months probation.
Despite the fact that the conspiracy charges brought against Petitioner involving
the Individuals were desolved, law enforcement continued to unlawfully detain
Petitioner at the HCCC. Rather than release Petitioner free of charges, law
enforcement erroneously brought new conspiracy charges against him by which they
instigated, fabricated, and manufactured while Petitioner was still detained or
confined at HCCC.
The new charges brought against Petitioner alleged that, from in or about

-20-

November 2005 through January 2007, in Essex County, in the District of New
Jersey, Petitioner knowingly conspired to possess with intent to

distribute one

kilogram or more of heroin in violation of 21 U.S.C. §§ 846 and 841(b)(1)(A).
For probably cause purposes to bring the new charges against Petitioner, law
enforcement falsified that during an "unrecorded" post arrest interview with
agents involved in the case, Petitioner admitted that he acquired quantities of
heroin from an individual named "Carlito", later known or identified as Carlos A.
Antigua. According to law enforcement, Petitioner provided them with a T-Mobile
cell phone by which he used to contact Antigua. The Cell phone, according to
agents, contained a pre-programmed phone number stored under the listing,
"Carlito." Petitioner's cell phone provider at the time was NOT T-Mobile, but was
infact Virgin Mobile. This was another falsification by the government.
Law enforcement further falsified that between January 24, 2007 and January
31, 2007, the cell phone Petitioner provided them received calls from Antigua. At
which time, the agents answered the phone and actually made contact with Antigua
in an undercover capacity to negotiate future heroin transactions, that is, 100 2.5 gram bricks of heroin for $180 per brick. Antigua was later placed under
arrest. Although the amount of heroin was negotiated, there is no evidence that
any heroin transactions occurred between the agents and Antigua.
On August 16, 2007, Antigua appeared before Judge Cavanaugh and pled guilty to
a one count information, charging that on or about January 31, 2007, in Essex
County, in the District of New Jersey he knowingly conspired with others (again,
not Petitioner) to pbssess with intent to distribute 100 grams or more of heroin,
in violation of 21 U.S.C. §§ 846 and 84l(a)(l)(b)(l)(B). On March 1, 2011, Antigua
was sentenced to 35 months imprisonment. How is Petitioner the only "alleged"
conspirator sentenced above 100 grams? During the entire time period the alLeged
undertaken criminal activities occurred between agents and Antigua, Petitioner was
always detained or confined at HCCC. Petitioner had absolutely no knowledge or

-21-

contact with the agents, Individuals, nor Antigua. See: (Tr. Trans. pgs;340482, Feb. 18, 2010).

background and pleadings

In February 2010, Petitioner was unlawfully convicted by a jury of
conspiracy to distribute and possess with intent to distribute 1,000 grams or
more of heroin, in violation of 21 U.S.C. §§ 841(a) and 841(b)(1)(A)(1), also of
distribution and possession with intent to distribute 100 grams or more of
heroin, in violation of 21 U.S.C. §§ 841(a) plus 841(b)(1)(B); and dupliciously
included in count two 18 U.S.C. §2. See: Judgement of Conviction, United States
v. Telfair, Crim. no. 08-0757 (D.N.J. Nov. 23, 2011, DE 95). Petitioner was
sentenced to 240 months imprisonment. See: Id. The U.S. Court of Appeals for the
third Circuit affirmed Petitioner's conviction and sentence. See: United States
v. Telfair, 507 F. App'x 167, 179 (3rd Cir. 2012). Petitioner's request for a
Writ of Certiorari to the United States Supreme Court was denied. See: Telfair
v. United States, 571 U.S. 866 (2013). Rehearing denied, 571 U.S. 1105 (2013).

Chronological Filing:
A. 28 U.S.C. §2241 (DE 1)
B. Supplemental Pleading §2241, (DE 1-4)
C. Dismiss Feb 13, 2019
D. Conviction affirmed (2012)
E. Rehearing denied, 571 U.S. 1105 (2013)
F. Filed 28 U.S.C. §2255 (2013), (DE 1)
G. §2255 denied Feb. 17, 2016 (DE 37)
H. COA denied June 19, 2018 (DE 74)
I. File 28 U.S.C. §2241 denied Aug. 19, 2013

-22-

J. File reconsideration denied Dec. 1. 2016
K. Supreme Court denied May 15, 2017
L. September 2016 filed a second §2241 denied Aug. 30, 2017
M. 2017 filed another §2241 denied 2017
N. November 2017 ending in May 2019 35/3582 denied Sep. 4, 2019
O. April filed a fourth §2241, denied June 21, 2019
P. October 2019, filed fifth §2241 with request for bail, and Supplemental
Briefs denied.

ROWE

In Comparison:
The Government charged Rowe with violating 21 U.S.C. §84l(a)(l) by two
means: distributing heroin, and possessing it with intent to distribute. The
Government further charged that the violation involved 1,000 grams or more of
heroin, but provided the jury with two options for a finding on drug weight:
1,000 grams or more, and 100 grams or more, under §84.1(a)(l)(A)(i), a violation
of §841(a) involving 1,000 grams or more of heroin requires a mandatory minimum
penalty of ten years' imprisonment and sets a maximum penalty of life
imprisonment. Under §84l(b)(l)(B)(i), a violation of §84l(a) involving 100 grams
or more of heroin requires a mandatory minimum penalty of five years (2019 U.S.
App. LEXIS 10] imprisonment and sets a maximum penalty of forty years'
imprisonment. Because the weight involved in a violation of §841(a) increases
the statutory penalty, it is an element of the offense that must be proven
beyond a reasonable doubt. See: Alleyne v. United States, 570 U.S. 99, 103, 133
S. Ct. 2151, 186 L. Ed. 2d 314 (2013) ("Any fact that, by law, increases the
penalty for a crime is an 'element' that must be submitted to the jury and found
beyond a reasonable doubt."). Therefore, the question presented here is whether

-23-

the evidence was sufficient to aLlow a jury to find that Rowe violated §84l(a)
by distributing 1,000 or more grams of heroin, or by possessing with intent to
distribute 1,000 or more grams of heroin.

TELFAIR

Petitioner avers that based on the precedent in Alleyne, 570 U.S. 99, 103.
133 S. Ct. 2151, 186 L. Ed. 2d 314 (2013); and in conjunction to the NEW Third
Circuit's precedent in Rowe: Telfair's First Count of 1,000 or more grams under
§2, §841, and §846, the underlying "conduct" by which Telfair's 1,000 or more
grams conviction/judgment is premised upon does not comport with the necessary
threshold STATUTORY-ELEMENT requirements under §2, §841, nor §846. ROWE, 919 F.
3d 752 (3rd Cir. 2019).
The evidence adduced at Telfair's "coram non judice" trial significantly
establishes that the conduct which triggered the statutory elements under §2,
§841 and §846 for the 1,000 or more grams count was instigated by agent's
impersonation between DEA agent(s) and their own witnesses NOT involving
Telfair's participation. (See: Trial Trans. Feb. 18, 2010 pgs 340-486).
The Agents in Telfair's case, in an undercover capacity impersonated as drug
traffickers to their own witnesses instigated the 1,000 or more grams count in
the 3rd set of the indictment (i.e. 08-cr-0757-DMC) all while Telfair was being
imprisoned in Hudson County Correctional Center under the original, indictment
(i.e. 07-cr-0272-DMC) for a total of 58 months.
TeLfair was imprisoned by undercover agents on Jan. 23, 2007 through Nov.
2011, as to indictment No.: 07-cr-0272-DMC involving 100 or more grams in the
first set of indictments. After a short period of time imprisoned in HCCC, the
100 or more grams was desolved when the second set of indictments took the place
of the first indictment. Telfair's first indictment was superseded by the 1,000

-24-

or more grams under indictment No.: 07-cr-0272-DMC. the Conduct of undercover
agents ied to duplicity in count two of Telfair's indictment; which led to the
unlawful and procederaliy unreasonable sentence violating Telfair's Due Process.
Again, while Telfair was being imprisoned under indictment No.: (07-cr-0272DMC), the agents impersonated as drug traffickers to their own witnesses, then
indicted Telfair in a third set of indictments (i.e. 08-cr-0757-DMC). The
indictment(s) is constitutionally defective due to duplicity also the 1,000 or
more grams being the conduct of undercover agents to their own witnesses; and
the 100 or more grams was superseded in the second set of indictments thus
cannot be utilized as a second count in the third set of indictment under a new
indictment number.
Telfair was imprisoned for 58 months in HCCC. While imprisoned

undercover

agents conduct led to Count 1, the 1,000 or more grams and Count 2, the 100 or
more grams, plus aiding and abetting. The government did not adduce sufficient
evidence respecting the statutory elements for: Count 1, for the 1,000 or more
grams, nor Count 2, for the 100 or more grams plus aiding and abetting, of the
offenses charged to permit jury consideration. The government did not present
[any] evidence of: Knowingly., distribution, possession, nor "Mens-Rea" involving
Telfair. See: (Trial Trans. Feb. 18, 2010, pgs*340-482 included herein).

PROCEDURAL HISTORY

In Telfair's case the District Court relied on information "lacking
sufficient indicia" of reliability to determine Telfair's offense level(s), nor
did [ANY] of th government's witness testimony fill the evidentiary gap(s). The
government's presentation of the evidence rested upon an incorrect understanding
of whom, committed the offenses which violated the statutory element under §841,
§846, and §2 charged in the third set of indictments; the District Court abused

-25-

its discretion by faiiing to correct the error(s) by jury instructions; and the
generai verdict in Teifair's case does NOT assist [a]ny Court in understanding
how the jury EVER arrived at its determination. Telfair's trial jury was mislead
which led to Telfair being tried before a "kangaroo” court. See: CaraballoRodriguez, 726 F. 3d at 431.. Also see: (Trial Trans, pgs 340-482).
While it is axiomatic that the jury's verdict is premised on an expectation
that jurors 'are instructed extensively as to what evidence they can consider,
how to consider it, and the relevant legal principles." Id. That did NOT happen
here in Telfair's case, and the logic of Caraballo-Rodriguez (919 F. 3d 762)
provides additional support for Telfair's claim(s).

POINT CWE OF ARGUMENT: THE CLAIM IS REITERATED

INTERVENING CHANGES IN LAW(S)
Petitioner avers, based on the new precedent in Rowe, that he cannot be
guilty of conspiracy to distribute unless there is proof that he possessed grams
on a single occasion. In Rowe, the defendant was charged in a one-count
indictment with distribution and possession with intent to distribute 1,000
grams of heroin in violation of 21 U.S.C. §841(a)(l) and (b)(1)(c)- The court of
appeals held that the evidence was insufficient to meet the 1,000 gram
threshold. Each unLawful "distribution" is a separata offense, as opposed to a
continuing crime, and the government conceded that it did not present evidence
of any single distribution involving 1,000 grams. 919 F. 3d 752 Id. at *4.
Unlike distribution, possession with intent to distribute a controlled substance
is a continuing offense, i.e.

a continuous, unlawful act or series of acts set

on foot by a single impulse and operated by an unintermittent force, however
long a time it may occupy." 919 F. 3d 752 _Id. at *5. In Rowe, the government
conceded and the court held that the drug quantity threshold cannot be met by

-26-

combining muLtiple distributions and discontinuous possessions during the
indictment period. Id. The evidence in the case was insufficient to aiLow a
rational juror to conclude that the defendant possessed with intent to
distribute 1,000 grams of heroin at any one time. 919 F. 3d 752, _Id. at *6
Rowe did not involve a conspiracy conviction and did not purport to overrule
binding Third Circuit precedent about how to calculate drug quantity for a
conspiracy conviction. As explained in Hardwick v United States, No. CV 127158 U.S. Dist. LEXIS 158905, 2018 WL 4462397, at *14 (d.N.J. Sep. 18, 2018):

[i]n drug conspiracy cases, Apprendi requires the jury to find
only the drug type and quantity element as to the conspiracy as
a whole, and not the drug type and quantity attributable to each
co-conspirator. Ihe finding of drug quantity for purposes of
determining the statutory maximum is, in other words, to be an
offense-specific, not a defendant-specific, determination. The
jury must find, beyong a reasonable doubt, the existence of a
conspiracy the defendant's involvement in it, and the requisite
drug type and quantity involved in the conspiracy as a whole.
United States v. Whitted.. 436 F. App'x 102, 105 (3rd Cir. 2011)
(quoting United States v. Phillip, 349 F.3d 138, 142-43 (3rd
Cir. 2003), vacated and remanded on other grounds sub nom.
Barbour v. United States, 543 U.S. 1102, 125 S. Ct. 992, 160 L.
Ed. 2d 1012 (2005). Because the drug quantity for the crime of
conspiracy is an offense-specific determination involving the
quantity involved in the entire conspiracy, it necessarily
follows that those drugs need no be possessed by any one
conspirator at one specific time. United States v. Woodley, No.
13-113, 2016 U.S. Dist. LEXIS 1112/4, 2016 WL 4523924, at *5
(W.D.Pa. Aug.#22, 2016) (citing United States v. Garvey. 588
Fed. Appx. i84. 188 (3rd Cir. 2014) ("With respect to the amount
of controlled substance, a finding must be made as to the drug
type and quantity involved in the conspiracy as a whole, not the
quantity attributed to each co-conspirator").
Conspiracy
To sustain a conspiracy conviction under 21 U.S.C. §846, the government must
prove beyond a reasonable doubt the foliowing three elements: "(l) a shaced
unity of purpose, (2) an intent to achieve a common illegal goal, and (3) an
agreement to work toward the goal, which [the defendant] knowingly joined."
United States v. Claxton, 685 F. 3d 300, 305, 57 V.I. 821 (3rd Cir. 2012)

-27-

(alteration in original) (quoting United States v. Boria, 592 F.3d 476, 481 (3rd
Cir. 2010)). the second element requires the government to prove that the
defendant has actual knowledge of or was wiLlfully blind to the specific
unlawful objective contemplated by the conspiracy. United States v. CaraballoRodriquez, 726 F.3d 418, 425 (3rd Cir. 2013) (en banc) (citations omitted). When
the object of a conspiracy is the distribution of a controlled substance, the
government must "introduce drug-related evidence, considered with the
surrounding circumstances, from which a rational trier of fact could logically
infer that the defendant knew a controlled substance was involved in the
transaction at issue." Boria, 592 F. 3d at 481.

Possession with intent to Distribute and distribution

To convict a defendant of possession with intent to distribute a controlled
substance in violation of 21 U.S.C. §84l(a)(l), the government must prove beyond
a reasonable doubt that the defendant "(1) knowingly possessed a controlled
substance with (2) the intent to distribute it." United States v. Iglesias, 535
F. 3d 150, 156 (3rd Cir. 2008) (quoting United States v. Bobb, 471 F.3d 491, 497
(3rd Cir. 2006)). Possession may be actual or constructive and proven by direct
or circumstantial evidence. Li. (citing Bobb, 471 F. 3d at 497). A defendant
constructively possesses a controlled substance if he or she "ha[s] the power
and intent to exercise both dominion and control over the object he or she is
charged with possessing." Id. (quoting United States v. Garth, 188 F. 3d 99, 112
93rd Cir. 1999)).
See: United States v. Little, 314 F. Supp. 3d 647, 660 (E.D.Pa. 2018)
(citing 21 U.S.C. §§84l(a)(l), (b)(1)(C); Third Circuit Model Criminal Jury
Instructions §6.21.841B). To f'distribute' means to deliever (other than by
administering or dispensing) a controlled substance or a listed chemical."

-28-

United States v. Rowe, 919 F. 3d 752, 759 (3rd Cir. 2019). Section 802 defines
"deiiver" and "delivery" as "the actual, constructive, or attempted transfer of
a controlled substance or a listed chemical." 21 U.S.C. §802(8); Rowe, F. 3d at
759.

POINT TWO OF ARGUMENT: The Claim is Reiterated

Petitioner avers that the government [failed] to prove the existence of §2,
§841, §846; and that the underlying [conduct] by which Telfair's
conviction/judgment is premised upon DOES NOT comport with the necessary
threshold STATUTORY ELEMENTS. The Petitioner is innocent of the [conduct] of
agent's impersonation as drug traffickers to their own (CW(s)). See: (Trial
Trans, pgs: 340-486. Feb 18, 2010).

— ----- PETER WOODLEY -------1023 U.S. Dist. LEXIS 181019
Woodley fiLed a motion to dismiss Count.One of the indictment charging him
with conspiracy to distribute heroin, in violation of 21 U.S.C. §846. According
to the defendant, the government's allegations are based on conversations
between him and a (CS) concerning the distribution of heroin. The Defendant
argued that the government cannot prove a conspiracy between him and a
government informant, and there is no evidence that anyone other than an
informant participated in the conspiracy, thus Count One must be dismissed,
The defendant was correct that one cannot be convicted of conspiring only
with a government agent or informant. In Sears v. United States, 343 F. 2d 139,
142 (5th Cir. 1965), the Fifth Circuit established the rule that "as it takes
two to conspire, there can be no indictable conspiracy with a government
informer who secretly intends to frustrate the conspiracy." See aLso: United

-29-

States y. Corson, 579 F. 3d 804, 811 (7th Cir. 2009) ("[a] defendant is not
liable for conspiring solely with an undercover government agent or a government
informant."); United States v. Lively, 803 F. 2d 1124, 1126 (11th Cir. 1986)
holding that the district court's faiLure to instruct the jury concerning the
inability of the government informant to conspire with another person was
reversible erhor in the prosecution for conspiracy to distribute cocaine, where
alLeged co-conspirator who received cocaine from the defendant became a
government informant during the course of the conspiracy.
In this case, Count One of the indictment alleges that the defendant
participated in a heroin distribution conspiracy between December 2001 and
August 2012. According to the government, members of the conspiracy included the
defendant and the CS. After completion of the conspiracy, the CS began to
cooperate with the government in its investigation of the defendant, who
supplied heroin to the CS during the conspiracy. The cooperation of the CS
eventually led to the defendant's arrest in March, 2013. At that point, the CS
and defendant were not participating in a conspiracy, and the defendant was not
charged with conspiring to distribute heroin at that time.
Contrary to the defendant's position, the CS apparently did not become a
government informant until after the time period of the conspiracy alleged in
tha indictment, thus the dismissal of Count One is not warranted. See: United
States v. Cousar, 539 Fed. Appx. 83, 2013 U.S. App. LEXIS 17862, 2013 WL
4517099, at *2 (4th Cir. 2013) (holding that the evidence in a case involving a
conspiracy to distribute crack cocaine did not warrant an instruction on a
defense that the defendant could not be guilty of conspiring only with a
government informant where the defendant entered the charged conspiracy with the
co-defendant before the co-defendant become an informant). Accordingly, the
defendant's motion to dismiss Count One of the indictment will be denied at this
time, with leave for defendant to renew his motion if the government fails to

-30-

prove at trial that he participated in a conspiracy with any individuals other
than a government informant during the time period alleged in Count one.

TELFAIR'S TRIAL

TRANSCRIPT OF TRIAL PROCEEDINGS
February 18, 2010 pgs:340-482
Pages 346-348 :
MR. PEDICINI:
Judge, I raised that objection on the hearsay issue because I'm
a little confused abo it the theory of the Government. I know
they're going to have this witness who is going to say this is
what I'm saying, and he's talking to the agents about Hass.
Obviously Hass is, allegedly, my client. And at what point is my
client involved in — I’m not sure what conspiracy we’re talking
about.
THE COURT:
How about it?
MR. MAHAJAN:
Well, Judge, I thought we had decided that we — we argued this
the other day. Obviously —
THE COURT:
No. No. I didn't rule on this.
MR. MAHAJAN:
Well, we talk about the other day that simply because Mr.
Telfair's not able to complete the transaction, the way this
comes up is that the agents answer Mr. Telfair's phone after he
tell them, that's my heroin supplier calling, and these calls
are where he thinks its a representation of Hass, he thinks —
THE COURT:
But none of that has come out clearly in this case —
THE COURT:
— as to what he did. I have to agree with Mr. Pedicini. At the
moment, all we're going to hear is some agent acting like he's
someone else, a purchaser, that apparently was in some way
introduced or come about because of some relationship with Hass.
THE COURT:
But what if it was my phone and somebody did that and acted off
and did something on his own? How does —
Pages 349-350, line 24-25:
THE COURT:
-31-

But there is a heresay objection, and I agree with Mr. Pedicini
that I don't see the link. I think it's unfair to the Defendant
to figure out what to do with this. Quite frankly, I think you
have a crystal-clear, clean case from what I can hear what this
witness did vis-a-vis the Defendant, and I think these tapes are
going to do nothing but muddy the water, I think they're
unfairly prejudicial, and I'm not going to allow it under these
circumstances. If you want to bring, in the agent and let the
agent say what he said in his discussion with Mr. Telfair —
MR. MAHAJAN:
But it's not discussions with Mr. Telfair; it's discussions
between the witness and the agent.
THE COURT:
But you're one step too far removed, and unless you can show me
a case that says you can do that — and I don't want to hear
about this other part of a conspiracy because I'm not at all
clear about that conspiracy. I agree with the defense counsel's
arguments.
Pages 351-355:
THE COURT:
But you've got him talking to somebody else.
THE COURT:
~
~
~
~
~
So what? They're having a discussion out of the presence of the
jury between themselves. What's he going to do? Is he going to
cross-examine both of them at once as to what was being said? I
find this to be unfairly prejudicial under the circumstances.
THE COURT:
I think it's going to be confusing, and I just think it's unfair
to the Defendant under these circumstances.
Page 351, line 19:
MR. MAHAJAN:
Okay, Judge, while we're here, there's a video that shows the
transaction between the agents and the cooperator...
THE COURT:
I'm having a problem with this one step removed. If there was
evidence that this person was sent by this Defendant, that there
was some kind of a connection, that you have admission by this
person; but the mere fact that he's an agent acting because he
thinks that's what was going on, that's where the disconnection
is. I just think this is totally unfair to the Defendant, and
under these circumstances, I just can't see — it's just unfair.
I'm not going to allow it...
THE COURT:
But I think under these circumstances — and depending on what
comes out on cross-examination, he has to be careful.

-32-

THE COURT:
That might lead to something else,
Page 353, linr 23:
MR. MAHAJAN:
Now, you had conversation, you say, with an agent who you
thought was Mr. Telfair's cousin: is that right?
Page 354, line 23:
MR. MAHAJAN:
Do you recall the date on which you first met the agent? If I'm
not mistaken, the 30th of January. And how long before that had
you been in contact with Mr. Telfair regarding the transaction.
I would say since August, until I was arrested. This transaction
specifically that you had the meeting on January 30th, 2007,
right? Yes, sir. Had you spoken to Mr. Telfair in January of
2007 regarding the transaction?
Page 353, line 12-25:
MR. PEDICINI:
I have an objection to this whole line. I hate to do this, but (THE FOLLOWING TAKES PLACE AT SIDEBAR)
THE COURT:
This is one of the reasons — I don't know — I know that you
have a theory here — no, no, let em finish -THE COURT:
— and I know you gentleman have prepared. I'm advising you that
this is coming out very muddled, —
THE COURT:
— very UNCLEAR. I think it was just indicated, because I didn't
understand what you were trying to ask him...
Pages 356-358:
MR. PEDICINI:
Here's the objection, Judge. I don't know what — first of all,
Mr. Telfair was arrested on January 23rd.
THE COURT:
Correct.
MR. PEDICINI:
This individual — this conspiracy, I submit, is over at the
time he's arrested.
THE COURT:
Well, we've already talked about that.

-33-

MR. PEDICINI:
AIL right. Now, you have conversations coming at a point In time
when Mr. Telfair is in custody, and we're somehow trying —
Page 356, line 14-16:
THE COURT:
I'm going to let this jury go in for their break. Hoid on.
(THE FOLLOWING TAKES PLACES IN OPEN COURT)
Page 357, line 2-23:
THE COURT:
Okay. The jury s out. Mr. Pedicini, what's your objection.

Mr. Pedicini:
Judge, first of all, I'm confused as to what conspiracy we are
now engaged in trying to prove.
THE COURT:
I am also.
MR. PEDICINI:
And my concern is, in an effort to prove it, you're going to
have statements that I submit are hearsay statements outside the
confines of 801(d)(2)(E) in an effort to further implicate Mr.
Telfallr. Mr. Telfair was in custody since January 23rd. This
whole set of circumstances occured on Januart 30th and 31st of
2007. It seems to me that the conspiracy involves the witness,
Mr. Antigua, and the agents. And we know the agents' statements
can't be used as co-conspirator statements because they're not
members of the conspiracy.
So I'm jsut very confused about where we're going with this, and
it's just coming out very muddled. And the theory, I DON'T
UNDERSTAND the relevance of this. I don't understand how it's
admissible under any hearsay exception I can think of, AND I
DON'T EVEN THINK IT'S THE SAME CONSPIRACY THAT'S CHARGED IN THIS
INDICTMENT.
Page 359:
THE COURT:
I think, you know, there comes a time — I recognize that the
Rules of Evidence are rules of inclusion, not exclusion; but I
always have to worry here about what's FAIR, about the ability
of defense counsel to in any way counter or intelligently crossexamine someone for impeachment or whatever purpose when there
are hearsay or out-of-court statements made by the nondeclarant.
That's the whole purpose of hearsay, it's trustworthiness and
reliability, And, quite frankly, I am having a difficult time
understanding — there seems to be a disconnect between that
what you're doing and — because the agents in there and the
Defendant. And there's a gap. And I think from everything I've
heard so far, for the same reason I said at sidebar, that the
audio was inappropriate under 403, I think this is the same

-34-

thing, plus hearsay.
MR. PEDICINI:
So you can't conspire with an agent. And if you can't conspire
with an agent, it's not an 801(d)(2)(E) exception to the hearsay
rule.
Pages 360-265:
MR. PEDICINI:
But you can't — but you see, then it impacts on Mr. Telfair,
because it's Mr. Telfair's name that's being mentioned, Hass. If
this was a staement made in furtherance of the conspiracy
involving my client, it still would be a problem given the time
frame of the arr:*st and the contents of the phone call of this
witness talking to an agent who is obviously pretending to be my
client. Now, if my client was on the other end, it would be a
different story.
THE COURT:
The problem I'm having is, there is a disconnect between this
defendant and the conversation.
THE COURT:
WeLL, except that the Defendant now steps out of the picture
because he's arrested, and we have an agent step in —
Pages 362-365:
THE COURT:
How do I know that the Defendant wouldn't have changed his mind
at that point and never gone through with this? How do I know he
wasn't puffing? How did I know any of this?
THE COURT:
I think the prosecution is making an error in pursuing this for
the reasons that I said at sidebar. I think you're flirting with
a real problem here. And I'm having great difficulty under there
circumstances. And I understand those rule. But there seems to
be a problem with this.
THE COURT:
You see, my problem is, the Agent isn't a conspirator. He's
acting like one. That's where I'm having a difficult time. If it
was another conspirator, if it was the cousin, that would be
different. I'd understand what you're doing. But you've got
someone playing a part that's really not involved in the
conspiracy, and yet you want to give him the credit for that so
that he can get around the rules that otherwise would not allow
this person to testify.
THE COURT:
You know what? You know what? I'm going to tell you what I'm
going to do. I'm going to let you do it, if that's what you want
to do, and we'll see what happens in Philadelphia. That's the
way I look at it now.

-35-

MR. Mahajan:
We have great respect for your Honor's view on the evidence,
Your Honor, and sometimes getting what we want is the worst
medicine...

NOTE: The cumulative affects of trial error(s) invaded the province of the jury's
fact finding function, violating Petitioner's 5th and 6th Amendment Rights. See:
(Feb. 18, 2010 Trial Trans, pgs: 356-365).

POINT THREE OF ARGUMENT: The Claim is Reiterated

Petitioner previously challenged [ALL] predicate offenses for the career
offender enhancement §4B1.1; and the additional point within his PSR; and his drug
weight(s) inter alia. Petitioner believes his imprisonment is further
unlawful/unconstitutional because he is not a legitimate career offender pursuant
to the Supreme Court's opinion in Johnson v. United States, 135 S. Ct. 2551, 192
L. Ed. 2d 569 (2015). Petitioner's sentence violates the Sixth Amendment by
including enhancements and facts not found by a jury. The fundamental error(s) led
to depriving Telfair's "coram non judice" proceddings of due process.
At sentencing the government failed to submit to the Court and PSR the
certified documents to establish Petitioner's "prior" criminal history as objected
to within previous counsel's sentencing Memorandum's footnotes. Petitioner
maintains that when the record is not clear due to, inter alia, the government's
failure to produce Shepard documents the court must assume that the conviction(s)
rested upon the least of the acts in the statute. Petitioner's prior convictions
do not have the required element(s) of FORCE necessary to fit within ACCA's force
clause, rendering his mandatory sentence unlawful.
Sixth Amendment concerns and procedural fairness... Mathis, 136 S. Ct. at
2252-53. First, the Sixth Amendment requires that "[o]ther than the fact of a
prior conviction, any fact that increases the penalty for a crime beyond the

-36-

prescribed statutory maximum must be submitted to a jury, and proved beyond a
reasonable doubt." Apprendi v. New Jersey, 530 U.S. 466, 490, 120 S. Ct. 2348, 147
L. Ed. 2d 435 (2000). Since the maximum penalty is increased whenever a court
later uses a prior conviction to trigger the ACCA enhancement, it would "raise
serious Sixth Amendment concerns" the court went "beyond identifying the crime of
conviction to explore the manner in which the defendant conraitted that offense."
Mathis, 136 S. Ct. at 2252. Second, "an elements-focus avoids unfairness to
defendants." Id. at 2253. "Statements of 'non-elemental fact' in the records of
prior convictions are prone to error precisely because their proof is
unnecessary," which means "[a]t trial, and still more at plea hearings, a
defendant may have no incentive to contest" them. Ld. (citation omitted). These
types of factual inaccuracies "should not come back to haunt the defendant many
years down the road by triggering a length mandatory sentence." Id.
In a typical case, then, a sentencing court performing a categorical-approach
analysis "cannot go beyond identifying the crime of conviction" and reviewing the
statutory definition. Mathis, 136 S. Ct. at 2252. But there is an exception. "[l]n
a narrow range of cases," the "categorical approach— may permit the sentencing
court to go beyond the mere fact of conviction" and the statutory text, Taylor,
495 U.S. at 60-2, and also consult the "charging document, written plea agreement,
transcript of plea colloquy, and any explicit factual finding by the trial judge
to which the defendant assented," Shepard v. United States, 544 U.S. 13, 16, 125
S. Ct. 1254, 161 L. Ed. 2d 205 (2005). This limited universe of court records,
which has been extended to include jury instructions, see Descamps, 133 S. Ct. at
2281, has been termed "Shepard documents." The purpose of this "modified"
approach, and its accompanying license to review any available Shepard documents,
is to provide sentencing judges with a tool to determine reliable not what
specific conduct was the basis for a particular crime as a factual matter, but
rather what type of conduct is generally represented by an underlying conviction

-37-

as a legal matter. But because the modified approach is accordingly intended only
to "serve[] the limited function" of "help[ing] effectuate the categorical
analysis," Id, it retains the categorical approach's single purpose: to figure out
the precise elements of the crime of conviction. Sheppard, 544 U.S. at 26.
In line with that limited function, the modified approach also has limited
applicability: a sentencing court may use it only if the underlying conviction was
under a so-called "divisible" statute. Descamps, 131 S. Ct. at 2281-82. A divisibl
statute "sets out one or more elements of the offense in the alternative." Id. at
2281, and in the "typical case brought under the statute, the prosecutor charges
one of those alternatives, and the judge instructs the jury accordingly,: Id. at
2284. Returning to the example of a state burglary statute encompassing both
lawful and unlawful entry, consider a situation where, instead of merely sweeping
more broa cLy than generic burglary, the statute was specifically phrased to
prohibit "the lawful entry or the unlawful entry" of a premises with intent to
steaL. See Mathis, 136 S. Ct. at 2249.
Petitioner avers that he is actually/factually innocent, and that his sentence
is procedurally unreasonable violating his Sixth Amendment right(s) to trial by
jury; and violating his Fifth Amendment right(s) to due process, which Led to
Petitioner being imprisoned for violations of the laws committed by agents. See:
(Feb. 18, 2010 Trial Trans, pgs: 340-465).

IN COMPARISON

ROWE/TELFAIR

-33-

Third Circuit review of the sufficiency of the evidence is plenary, but "we
must consider the evidence in the light most favorable to the government and
affirm the judgment if there is substantial evidence from which any rational trier
of fact could find guilt beyond a reasonable doubt." United States v. Benjamin,
717 F. 3d 371, 376 (3rd Cir., 2013) (citations and internal quotation marks
omitted). Our task therefore is to determine "whether the Government has adduced
sufficient evidence respecting each eLement of the offense charged to permit jury
consideration." United States v. Miller, 527 F. 3d 54, 63 (3rd Cir., 2008)
(citations omitted).
The Government may rely on direct and circumstantial evidence to make its case
to the jury. United States v. Caraballo-Rodriguez

726 F. 3d 418, 425 (3rd Cir.,

2013). While it is axiomatic that reasonable inferences can support a verdict,
they "must bear a logical or convincing connection to establish fact." Id.
(citations and internai quotation marks omitted). In the end, "[t]he question is
whether all the pieces of evidence against the defendant, taken together, make a
strong enough case to let a jury find [the defendant's] guilty beyond a reasonable
doubt." Id. at 432 (quoting United States v. Cooper, 567 F. 2d 252, 254 (3rd Cir.,
1977)).
The Government charged Rowe with violating 21 U.S.C. §84l(a)(l) by two means:
distributing heroin, and possessing it with intent to distribute. Tne Government
further charged that the violation involved 1,000 grams or more of heroin, but
provided the jury with two options for a finding on drug weight: 1,000 grams or
more, and 100 grams or more. Under §841(b)(l)(.A)(i), a violations of §841(a)
involving more than 1,000 grams or more of heroin requires a mandatory minimum
penaLty of ten years' imprisonment and sets a maximum penalty of Life
imprisonment. Under §841(b)(l)(B)(i), a violation of §841(a) involving 100 grams
or more of herbin requires a mandatory minimum penalty of forty years'
imprisonment. Because the weight involved in a violation of §841(a) increases the

-39-

statutory penalty, it is an element of the offense that must be proven beyond a
reasonable doubt. See Alleyne y. United States, 570 U.S. 99, 103, 133 S. Ct. 2151,
185 L. Ed. 2d 314 (2013) ('’Any fact that, by Law, Increases the penalty for a
crime Is an eLement’ that must be submitted to the jury and found beyond a
reasonable doubt."). Therefor, the question presented here is whether the evidence
was sufficient to atLow a jury to find that Rowe violated §84.l(a) by distributing
1,000 or more grams of heroin, or by possessing with intent to distribute 1,000 or
more grams of heroin.
At trial, the Government did not present evidence of a single distribution
invblving 1,000 grams or more of heroin. The prosecutor mistakenly believed that
distribution of 1,000 grams couid be proven by combining several distributions
that, in total, involved 1,000 grams of heroin. Rowe challenged this approach in
his post-trial motion. The District Court confirmed that the Government was
mistaken, and the Government concedes the same before this Court. However, the
District Court found that because Rowe was aLso charged with possession with
intent to distribute, a continuing offense, the jury's general verdict could
stand. We disagree. As we will now explain, the Government did not present
sufficient evidence of possession with intent to distribute 1,000 grams of heroin.
Possession with intent to distribute is actual or contractive possession over
a controlled substance, United States v. Crippen, 459 F. 2d 1387, 1388 (3rd Cir.
1972) (per curiam), by a defendant who "ha[s] in mind or pLan[s] in some way" to
"deliver or transfer possession or control" of the controlled substance to
another. Third Circuit Model Criminal jury Instruction §6.21.841-5. Constructive
possession requires the power and intention at a given time to exercise dominion
or control over a thing." Benjamin, 711 F. 3d at 376 (quoting United States v.
Garth, 1888 F. 3d 99, 112 (3rd Cir. 1999)). Proof that a defendant associated with
a person who controls a drug is insufficient to prove constructive possession.
Garth, 188 F. 3d at 112.

-40-

Unlike distribution, possession with intent to distribute is a continuing
offense. United States v, Zidell, 323 F. 3d 412. 422 (6th Cic., 2003) (collecting
cases) "A continuing offense is continuous, unlawfuL act or series of acts set
afoot by a single impuLse and operated by an unintermittent force, however long a
time it my occupy.” United States v. Midstate Horticultural Co., 306 U.S. 161,
166, 59 S. Ct. 412, 83 L. Ed. 562 (1939) (citation omitted), (e.g.) In Benjamin,

we looked at another possession statute-felon in possession of a firearm-and held
that continuity is interrupted by ''relinquishment of both actual and constructive
possession of the gun before it is reaquired.” 711 F. 3d at 378 (citation and
alteration omitted). Applying our reasoning in Beniamin to §841, we conclude that
possession of 1,000 grams of heroin begins when a defendant has the power and
intention to exercise dominion and control over aLl 1,000 grams, and ends when his
possession is interrupted by a compLete.dispossession or by a reduction of that
quantity to Less than 1,000 grams.
The Government's evidence supporting the 1,000-gram verdict was premised on

its incorrect belief that it couLd combine weights from muLtipLe distributions and
discontinuous possessions during the indictment period. The Government
acknowledged its error at oral argument, Oral Arg. at 18:32, but asserted that
even so, it had presented sufficient evidence to support a reasonable inference
that at some point during the indictment period, Rowe possessed at Least 1.000
grams of heroin with intent to distribute or possessed over time, and instead
sought to determine whether Rowe possessed a 1,000-gram quantity of heroin at
Least once during the indictment period, the Government's evidence was not
sufficient to permit any ration juror to make such a finding beyond a reasonable
doubt. See: (Feb. 18, 2010 Trial Trans, pgs: 340-482) herein.

KELLY FACTOR
892 F. 2d 255

-41-

A conviction must be vacated when (l) there Is a variance between the
indictment and the proof presented at trial and (2) the variance prejudices a
substantial right of the defendant. United States v. Schurr, 775 F. 2d 549, 552
(3rd Cir., 1985). This rule is designed to protect the right(s) of the defendant
"not to be tried en masse for the conglomeration of distinct and separate offenses
committed by others." Kotteakos v. United States, 328 U.S. 750, 775, 90 nL. Ed.
1557, 66 S. Ct. 1239 (1946).
Where a single conspiracy is alleged in the indictment, there is a vaciance if
the evidence at trial proves only the existence of muLtipie conspiracies. United
States v. Smith, 789 F. 2d 196, 200 (3rd Cir.) Cert, denied, 479 U.S. 1017 S. Ct.
668 (1986). Telfair meets this threshold.

Telfair

In Telfair’s case the district court [failed] to instruct the jury on
Pinkerton principles, and KeLly factor(s) which led to Petitioner being convicted
for the crimes committed by agent’s impersonation as drug traffickers while
Petitioner was in pretial; whereas there could [only] be a legitimate conviction
if the Government proved a single conspiracy charged in the indictment was not
some other separate conspiracy. See: (Feb. 18, 2010 TrlaL Trans, pgs: 340-485).
Ihe essence of a conspiracy is an agreement. United States v. Nolan. 718 F. 2d
589, 595 (3rd Cir. 1983). In the case of Telfair, his conspiracy proven by the
record, trial transcript, that Telfair's unlawful conspiracy undec idictment No.:
08-cr-0757-DMC-KM is the conduct between Agent and its own witnesses NOT involving
Telfair. 'Hie Government [needed] to prove that Telfair agreed with at Least one of
the persons named in the indictment, that they, or one of them, would perform an
unlawful act. The question for the Court in this regard is whether Telfair can be
a party to the conspiracy involving the agents and their witnesses; and whether

-42-

the conspiracy alleged in the indictment broke up into separate conspiracies
beginning in indictment No.: 07-cr-0272-DMC through 08-cr-0757-DMC-KM. See: (Feb.
18} 2010 Trial Trans, pgs: 340-485) herein.
Aggrieved citizen aver neither deliberate indifference to the public knowledge
of subjugation of citizens to involuntary servitude with alien enemies of the
state and nation within the County of Burlington. N.J.. nor the tacit approval
that the license persons doing the involuntary servitude commerce depend for
continuous operation; no affirmative nor acting on behalf of the State's police
powers and Attorney General's clear mandatory duty to enforce the 13th and 14th
Amendment's inmunity for citizens against slavery and involuntary servitude labor
where not from accusation of a crime and duly convicted thereon can make
constitutional and lawful statutes and licensing laws or State customs, under
color of law or usage that authorize the kidnapping of aggrieved citizen as set
forth herein upon sworn and verified facts and subjugation of him permanently to
invbluntary servitude labor solely by classifying and/or stigmatizing him in
public or in private records by disquising him asi a foreign born aTi'Crv ehemy

:

!•;

:

■.

or criminal captured at war on terrorism and drugs.
Accordingly, aggrieved citizen seeks redress and remedy as prayed herein.

DECLARATION IN LIEU OF CERTIFICATION

I, Tommie H. Telfair, under penalty of false swearing pursuant to: 28 U.S.C.
§1746, declare that the foregoing documentary evidence and documentary facts
regarding [tjhese Habeas, inter alia, related matter(s) are true, correct, and
complete to the best of my abilities.

By:

Dated:

Tommie H. Telfair
In Propria Persona

-43-

PRAYER
WHEREFORE, upon the aforegoing Complaint suing out in the nature of extra­
ordinary writ in original proceedings redress and remedy to unlawful private
individuals kidnapping, convict leasing, and transaction seliing and/or leasing
aggrieved citizen to FCI, or private Alien Enemy Prison(s) licensed by State
statutes and ordinances making the subjugation of intra state and out of state
kidnapped citizens to involuntary servitude labor as to and physically along with
foreign bom captured enemy and criminal aliens under War on Terrorism and Drugs,
prays as follows:

1.

THAT: This Honorable Court open original summary judicial proceedings

and issue Order commanding the Respondent make the return showing the: power,
standing, jurisdiction, and authority followed by the Government to vest in
private individuals the full judicial and coercive police powers of the State of
New Jersey for kidnapping and imprisoning its citizens to secretly or privately in
FCI, or alien enemy prisons as to and physically along with captured foreign bom
enemy aliens captured at War within America and its allies in the War on Terrorism
and Drugs. Upon named Respondent's delays, refusal, or failure this Honorable
Court immediately enter summary judgment AGAINST Respondant.
2.

THAT: Upon the named Respondent refusal or failure to make the return

discharge of aggrieved citizen from secret or private captivity,, and subjugation
to involuntary servitude labor inside the FCI, or private alien enemy prison
within this State, [tjhis Honorable Court, demand DISCHARGE of said Petitioner; and
for any other remedy and redress this Court in the interest of justice and the
public welfare deem necessary. See: (Summary of Claims).

Date:

By:

TqnSiT*Hr"Telfair~^'
In Propria Persona

-4.4-

CERTIFICATE OF SERVICE

I. Tommie H. Telfair, declare that a copy of the foregoing pleadings for these
Habeas Corpus moving matter(s) were mailed to:

Supreme Court
Of The United States
Clerks Office
Due to COVID-19 Petitioner is subject to lockdown, quarantines, and hardship
limiting Petitioner's abilities, and access to legal functionality.

Date: September It*1, 2020

By::
Tommie H. TelFalr”
In propria persona
FCI Fort Dix
P.0. Box 2000
Joint Base MDL. NJ 08640

-45-

Sworn Oath And Verification

I. Tommie Hassan Telfair, being of the age of the Majority and competent to
make this Oath and Verification, give this affidavit in sworn testimony, being
fully depose and state as follow;
1.

THAT: I am a natural born citizen of the United States and a citizen of

the State of New Jersey by lifelong permanent domicile.
2.

THAT: The aforegoing complaint is true and correct and that I have

personal knowledge and experience of its truthfulness and correctness.
3.

THAT: Wherever the aforegoing refer to any other source other than

personal knowledge and experience that I believe that the source to be true and
correct.

SUBSCRIBE AND SWORN BEFORE ME THIS

Ut

day of

i

, 2020.

SI

SEAL

Notary:
In and For The State of
J,
; my commission
expires^
.
DE’ETRAN. PICKETT
Commission #2418801
Notary Public, State of New Jersey
My Commission Expires
________ March 21. 2022

-46-

,v*
Tommie H. Telfair
Reg. no.: 28440-050
Bldg: 5752
FCI Fort Dix
P.0. Box 2000
JBMDL, NJ 08640
October 16th, 2020
Supreme Court
Of The United States
Office of the Clerk
1 First St., NE
Washington, DC 20543-0001
RE: AMENDED HABEAS CORPUS
REQUEST FOR COUNSEL
Dear Honorable CLerk,
PLEASE TAKE FURTHER NOTICE, of the following fact(s). I am the above
mentioned Petitioner presently before the Honorable Court seeking to sue out an
Amended Habeas Corpus inter r alia. As have been previously explained, due to the
'present' conditions of confinement in conjunction to COVID-19, Petitioner's
abilities to. litigate pro-se are prejudicially hindered.
The typewriters are dysfunctional, the staplers are inadequate, and it's
nearly impossible to obtain copies required to service either the court(s) or
any adversary. Enclosed with this request is Petitioner's ONLY additional copy
being provided to the Court for its use; and for serving any possible named
adversary to these Habeas Corpus proceedings.
Due to the increase in COVID-19 infections throughout the FBOP, Petitioner
anticipates further restrictions, lockdowns, and quarantines impeding
Petitioner's abilities to continue pro-se litigation in these Habeas Corpus
matters.
Petitioner requests the appointment of counsel for these moving matter(s);
and asks the Honorable Clerk to serve the possible named adversary resulting
from, the anticipated restrictions, lockdowns, or quarantines due to COVID-19
inter' alia.

RECEIVED
OCT 2 9 2020
-1-

.Lsgsiwgr

t.

Sincerely,

Enclosure

By
i

/

J*nvyruA>

Tommie H. Telfair
In Propria Persona

-2-

